CERTIFICATE OF COMPLIANCE
Case No. 19-309
Caption: John C. Carney, Governor of Delaware
v. James R. Adams
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 6,391 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 27, 2020.

taliePierre
Record Press, Inc.

Sworn to before me on
January 27, 2020
NADIA R. OSWALO HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
ission Expires November 10, 2023

